David L. Hatchett
Direct:
Email:

317.464.2621
david.hatchett@h2lawyers.com

March 13, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Joslyn Manufacturing Company, LLC et al. v. Valbruna Slater Steel Corp., et al.,
No: 19-917

Dear Mr. Harris:
On behalf of Respondents Valbruna Slater Steel Corporation and Fort Wayne Steel Corporation
in the above-captioned case, I hereby request, pursuant to Rule 30.4 of the Rules of this Court, an
unopposed second extension of time, to and including April 6, 2020, within which to file a brief
in opposition to certiorari in this case. Respondents’ brief in opposition is currently due on
March 23, 2020.
This two-week unopposed extension, to and including April 6, 2020, is respectfully requested due
to counsel’s other professional commitments and the presently evolving COVID-19 virus-related
issues transpiring in advance of the current deadline. Counsel of Record for Petitioners has been
contacted and does not object to the requested extension.
Thank you in advance for your attention to this matter, and please do not hesitate to contact me
should you need additional information.
Sincerely,

David L. Hatchett

Cc (via U.S. & Electronic Mail): Carter G. Phillips, Counsel of Record for Petitioners

